                                                  Memorandum
                                                  OFFICE OF THE INSPECTOR GENERAL
                     WASHINGTON, DC 20401


    DATE: March 31, 2005

REPLY TO
 ATTN OF: David B. Schaub, Supervisory Auditor

 SUBJECT: Follow-up Audit Report on Improving the Controls Over GPO's SmartPay Program
           at the Central Office

      To: Managing Director, Plant Operations
           Chief Human Capital Officer
           Managing Director, Customer Services

           The Office of the Inspector General's (OIG's) Office of Audits has completed a
           follow-up audit on GPO's SmartPay Program at the Central Office from November
           2004 through March 2005. Attached are the results of the audit, which found that
           the eight recommendations stemming from the September 2002 OIG Audit Report
           No. 02-09 Improving the Controls Over GPO’s SmartPay Program at the Central
           Office have been implemented.

           The OIG also identified the following conditions needing improvement:

                1. Internal control reviews and vulnerability assessments of the purchase
                   card program, as they apply to two GPO departments, need to be either
                   prepared or enhanced.

                2. Written review procedures have not been established for governing the
                   purchase card program within one department.

                3. Employee return or surrender of their assigned purchase card(s) could
                   be more easily monitored.

         This report contains three recommendations to improve GPO's SmartPay
         Program at the Central Office. The Chief Human Capital Officer and the Plant
         Operations Managing Director reviewed the preliminary findings in this report and
         have agreed with the recommendations in writing. (See Appendix II.)

         Mr. David Schaub, Supervisory Auditor, and Ms. Allyson S. Brown, Auditor-in-
         Charge, conducted this audit.




      05-03
      (343)
  We also noted that there have been recent changes to credit card limitation
  policies that occurred too late to be reviewed and analyzed for reporting within
  the scope of this audit. Based on the impact of these changes, coupled with
  observations made by the auditors in areas that were outside the scope of the
  original follow-up objectives, we have included another review of the SmartPay
  Program in our FY 2005 audit plan.

  We appreciate the cooperation and courtesies extended during the audit by the
  officials and staff of the Human Capital Office, Plant Operations, and the
  Customer Services Department.



  DAVID B. SCHAUB
  SUPERVISORY AUDITOR




05-03                                     2
(343)
                 FOLLOW-UP AUDIT ON IMPROVING CONTROLS OVER
                  GPO’S SMARTPAY PROGRAM AT CENTRAL OFFICE

                                          TABLE OF CONTENTS


RESULTS IN BRIEF………………………...……………………………………………….4

BACKGROUND ………………………………………………...……………………………6

OBJECTIVES, SCOPE, AND METHODOLOGY……..…………………………………..7

ASSESSMENTS OF AUDIT RECOMMENDATIONS, REPORT #02-09………………9

FINDINGS AND RECOMMENDATIONS…………………………………………………12

 1. Vulnerability Assessments and Internal Control Reviews Need to be
   Performed…........................................................................................................12

 2. Written Procedures Were Not Established in Engineering Services………..15

 3. Monitoring of Retired Purchase Cards Needs to be Improved……………….17

APPENDIX I: SUMMARY TABLE OF RECOMMENDATIONS……………………….19

APPENDIX II: MANAGEMENT COMMENTS……………………………………………20




05-03                                                     3
(343)
        REPORT ON FOLLOW-UP AUDIT OF IMPROVING CONTROLS OVER
             GPO’S SMARTPAY PROGRAM AT CENTRAL OFFICE

                                    RESULTS IN BRIEF


  The Government Printing Office (GPO) Office of the Inspector General (OIG) has
  completed a Follow-up Audit Report on GPO’s SmartPay Program at the Central
  Office from November 2004 through March 2005.

  The primary objective of this audit was to verify that management took the agreed-
  upon actions based on the eight original audit recommendations to ensure that
  adequate management controls were maintained over the GPO SmartPay Program
  in the areas of GPO outlined by OIG Audit Report No. 02-09.

  The auditors concluded that GPO management took the agreed-upon actions based
  on the eight original recommendations to ensure that adequate management controls
  were maintained over the GPO SmartPay Program within the areas outlined by Audit
  Report No. 02-09.

  In the course of completing all the objectives of the follow-up audit, the OIG identified
  the following conditions needing improvement:

        •   Internal control reviews and supporting vulnerability assessments (and/or risk
            analysis) of two departments (Engineering Services and Workforce
            Development, Education and Training) need to be developed in order to allow
            for effective evaluation of the purchase card program in their respective areas.

        •   Written review procedures have not been established for governing the
            purchase card program and how it is to be administered in one department
            (Engineering Services).

        •   Employee return or surrender of their assigned purchase card(s) was not
            being carefully monitored. GPO Form 2938, the form used for sign-off
            approval of relinquishing GPO-owned items when an employee retires (or is
            otherwise separated) can be amended to account for surrender of their
            purchase cards.

  MAJOR RECOMMENDATIONS

  To improve the internal controls over the GPO SmartPay Purchase Card Program in
  these areas, we recommend that the Plant Operations Managing Director and the
  Chief Human Capital Officer take the following steps:

05-03                                          4
(343)
        1. Ensure that written internal control reviews and periodic vulnerability
           assessment or risk analysis of the SmartPay purchase card program are
           performed within their respective departments;

        2. The Plant Operations Managing Director should ensure that written
           procedures and standard operating procedures are developed for
           Engineering Services and serve as an effective internal control measure;
           and

        3. The Chief Human Capital Officer should take steps to amend GPO Form
           2938, Employee Checkout Sheet, to allow for documented return and
           verification of purchase cards when a GPO employee retires, transfers, or
           is otherwise separated from the working area to which they were assigned
           when the card was issued to them.

  MANAGEMENT COMMENTS

  The Chief Human Capital Officer, in a memorandum dated March 25, 2005, has
  agreed with our findings and recommendations. The Director, Plant Operations,
  in a memorandum dated March 28, 2005, has also agreed with our findings and
  recommendations (See Appendix II).




05-03                                    5
(343)
                                     BACKGROUND


  The Purchase (Charge) Card, also known as the purchase card or the commercial
  credit card, is used to purchase supplies and services in accordance with the
  Materials Management Acquisition Regulation (MMAR). The purchase card is the
  preferred procurement and payment tool for micro-purchases, as prescribed in
  MMAR Chapter 13.2. A "micro-purchase" is an acquisition of supplies or services
  in which the aggregate amount for a single purchase does not exceed $2,500,
  except in the case of construction where the limit is $2,000. The purchase card
  may be used as an ordering and payment mechanism, not a contracting
  mechanism, for purchases above the micro-purchase threshold. When used as
  an ordering and payment mechanism, contractors may bill against the purchase
  card. When the order is shipped, the contractor bills the purchase card account
  instead of issuing an invoice directly to the agency/organization. Purchase cards
  for GPO are issued (and the program is administered) by Bank of America.

  To allow agencies/organizations the maximum latitude, the GSA SmartPay®
  Master Contract excludes only a few categories of purchases. They are:

        •   long-term rental or lease of land or buildings;
        •   travel or travel-related expenses (excluding conference rooms, meeting
            spaces and local transportation services such as Metro fare cards, subway
            tokens, etc.); and
        •   cash advances.

  Further restrictions for GPO cardholders have been defined in GPO Instruction
  805.27A, Obtaining, Using, and Safeguarding Commercial Credit Cards.

  GPO has been reorganized in several departmental areas since Audit Report
  #02-09 was issued. The relevant portion of Materials Management Service
  (MMS) has been absorbed by Customer Services, and General Procurement is
  now part of Acquisition Services. The Personnel Department, of which the
  Training and Career Development Branch was a part, has been reorganized as
  the Human Capital Office. The Training and Career Development Branch has
  been renamed as the Workforce Development, Education, and Training Branch.
  The Pipe and Sheet Metal Branch remains as a part of the Facilities Division,
  which is a part of Engineering Services, which is itself a part of Plant Operations
  (formerly known as Production Services).




05-03                                       6
(343)
                     OBJECTIVES, SCOPE AND METHODOLOGY


  The primary objective of this follow-up audit was to determine whether the eight
  recommendations concerning the controls over GPO’s SmartPay purchase card
  program that were made to three different GPO departments in OIG Audit Report
  No. 02-09 Report on Improving the Controls Over GPO's SmartPay Program at
  the Central Office were implemented.

  As a part of this follow-up audit, the internal controls governing GPO's SmartPay
  Program at the Central Office including protective measures against fraud, waste
  and abuse were reviewed and evaluated.

  The audit was performed in accordance with generally accepted Government
  auditing standards issued by the Comptroller General of the United States, and
  included such tests as were considered necessary under the circumstances. The
  scope of the audit included a review of management responses and management
  actions, including changes to the GPO organizational structure, since issuance of
  the original audit report No. 02-09 on September 9, 2002.

  This audit fieldwork was conducted between the months of November 2004 and
  March 2005. To meet the objectives of the audit, the audit team:

        •   Examined and verified a test sample of purchase card charges performed
            by Plant Operations and Acquisition Services for December 2004;

        •   Compared and contrasted two listings of current GPO Central Office
            purchase card cardholders for the months of December 2004 and
            January 2005 to ensure that internal controls were practiced;

        •   Interviewed and conducted conferences with appropriate management
            officials in Human Capital Office, Plant Operations, and Customer
            Services;

        •   Obtained and reviewed prior audit workpapers, audit recommendations,
            and management’s actions on implementing the recommendations;

        •   Interviewed officials in Engineering Services, Acquisition Services, and
            Workforce Development, Education, and Training Branch, and determined
            whether and to what extent the recommendations were implemented; and

        •   Developed a flow chart of the purchase card process.

05-03                                       7
(343)
  In addition, we reviewed the following publications and instructions that contained
  policy and procedures followed by GPO personnel:

        •   GPO Instruction 710.4, Audit Follow-Up, Resolution, and Management
            Decisions, to identify the established guidelines governing OIG audit
            follow-up and audit resolution;

        •   GPO Instruction 805.27A, Obtaining, Using and Safeguarding Commercial
            Credit Cards, to identify the established guidelines and procedures for
            credit card purchases for supplies or services;

        •   GPO Instruction 825.18A, Internal Control Program, to identify policies,
            standards, and responsibilities for conducting vulnerability assessments
            and internal control reviews of GPO programs and activities; and

        •   GPO Publication 1215.1, Program to Eliminate Fraud, Waste and Abuse in
            Government Printing Office Programs and Operations, to advise GPO
            employees of this program and assign responsibilities for implementing it.




05-03                                        8
(343)
                  ASSESSMENT OF AUDIT RECOMMENDATIONS,
                           AUDIT REPORT #02-09


   The OIG made the following observations and performed the following tests for each
   of the eight recommendations from report #02-09 (complete text of each
   recommendation is in Appendix I). We found that corrective action had been taken
   to improve the policies and procedures in providing reasonable assurance and
   safeguards against waste, loss and abuse regarding the SmartPay purchase card
   program in the GPO departments described as follows:

      Recommendation -01: A review of documentation subsequent to the audit
      report indicated that a memorandum had been prepared (dated September 4,
      2003) by the Director, Production Services (now Plant Operations) attesting to
      the fact that they had reconciled prior receiving tickets to the disputed items.
      This claim was further supported by an e-mail from the former Chief of the
      General Procurement Division (dated September 30, 2002), forwarding a
      statement by his personnel that GPO does not owe any past due amounts to
      Bank of America. Management officials have reconciled the receiving tickets
      by October 2002, and the OIG considers this recommendation closed.

      Recommendation -02: We reviewed GPO Instructions and Directives since the
      audit report and found that the Director of MMS had developed GPO Instruction
      805.27A, Obtaining, Using, and Safeguarding Commercial Credit Cards, issued
      November 5, 2002. This Instruction provides written guidelines on reconciling
      disputed items by MMS (and subsequent Customer Services) credit card
      holders. We also obtained a copy of Draft Instruction 805.27B, which included
      current updates to Instruction 805.27A. Both policies detailed the process of
      reconciling individual disputed items. With the issuance of GPO 805.27A and
      the subsequent policy change being done to update and improve the
      reconciling of disputed items, the OIG has determined that this audit
      recommendation has been successfully implemented.

      Recommendation -03: To satisfy the first part of this recommendation, the
      auditor interviewed an Acquisition Services official. The official stated that GPO
      policy has been changed in this area. Acquisition Services now reviews
      purchase requests before items are placed on purchase orders; if the items are
      $500 or less, they are authorized for purchase card charges in that area of
      GPO, but are not placed on a purchase order. To satisfy the second part of this
      recommendation, the auditor reviewed supporting records for the audit report
      which indicated that there were 33 total purchase card cardholders in GPO's
      Central Office, of whom 15 cardholders could be identified as supervisors. We
      obtained current listings which totaled 85 purchase card cardholders as of
05-03                                       9
(343)
        January 2005. A judgment sample of 40 cardholders was performed, and their
        positions were traced to current title identification per GPO’s employee listing
        maintained on Microsoft Outlook e-mail software. At least 25 of the 40
        cardholder names sampled were identified as supervisors. As a result,
        corrective action had been taken to both reduce small purchases under $500
        and also to issue more credit cards to supervisors in implementing this
        recommendation.

        Recommendation -04: An observation of activities by the Chief, Facilities
        Division (of which the Pipe and Sheet Metal Branch is a part) confirmed that
        purchase card procurements by branch employees are being monitored. We
        also obtained a sample of the monthly reconciliations of purchase card
        statements that is maintained in their database, and verified its accuracy. As a
        result, corrective action has been taken to ensure monitoring of credit card
        purchases in implementing this recommendation.

        Recommendation -05: In a September 4, 2002 letter sent to the OIG from
        Engineering Services, the Chief stated that the $500 transaction limit was being
        raised to $1,000 and that it would eventually be raised to $2,500. We also
        reviewed GPO instructions and directives since the audit report; as previously
        noted, the Director of MMS issued GPO Instruction 805.27A. This Instruction
        provided written guidelines that increased the single purchase transaction limit
        to $2,500 for all purchase card cardholders. As a result, corrective action has
        been taken to ensure an increase to the $500 transaction limit in implementing
        this recommendation.

        Recommendation -06: A review of forms currently in use by Workforce
        Development, Education and Training Branch determined that GPO no longer
        uses GPO Form 182, of which Copy 9 was a part. It has been replaced by
        GPO Form 2917 Request, Authorization, Agreement, and Certification of
        Training. Part 2 of this form, “Evaluation,” is being used by trainees to evaluate
        their training and is now being tracked in the Workforce Development office
        database. We also observed that the branch is developing an internal report, to
        be called the Course and Attendance Training Report (CAT), to monitor course
        attendance. As a result, corrective action has been taken to ensure certification
        of training in implementing this recommendation.

        Recommendation -07: A review of the current listing of authorized GPO
        purchase card cardholders for the months of December 2004 and January
        2005 indicated that credit limits have been substantially increased. We
        confirmed that the stated credit limit amounts were actually monthly limits.
        Thus a credit limit of $100,000 as stated on the January 2005 listing of
        cardholders was actually an annual limit of $1.2 million. The Customer
        Services Controller, who had recently performed a review of purchase card use
        within Engineering Services as of November 2004, noted that no cardholders
05-03                                       10
(343)
        had exceeded their annual limits because the limits were so high. We selected
        a judgmental sample of 40 credit card charges by 10 cardholders in Central
        Office for the month of December 2004. All charges were within the
        established limits. As a result, corrective action has been taken to ensure that
        cardholders do not exceed annual dollar limits in implementing this
        recommendation.

        Recommendation -08: As noted previously, the current listing of authorized
        GPO purchase card cardholders for January 2005 indicated that credit limits
        substantially increased. We reviewed the listing of cardholders at the time of
        the original audit and noted that the annual credit limits for the two purchasing
        agents cited in Audit Report #02-09 were $50,000 and $75,000 respectively.
        The new credit limits for purchasing agents in Acquisition Services as of
        January 2005 indicated that three purchase card cardholders identified as
        purchasing agents on this listing had monthly dollar limitations of $100,000,
        $100,000, and $40,000 respectively. As a result, corrective action has been
        taken to ensure that annual dollar limitations were raised for purchasing agents
        in implementing this recommendation.




05-03                                       11
(343)
                    FINDINGS AND RECOMMENDATIONS


              1. VULNERABILITY ASSESSMENTS AND INTERNAL
                 CONTROL REVIEWS NEED TO BE PERFORMED

  BACKGROUND

  GPO Instruction 825.18A, Internal Control Program was issued in May 1997. It
  prescribes policies and standards and also assigns responsibilities for conducting
  vulnerability assessments and internal control reviews of GPO programs and
  activities. This Instruction cites that the Public Printer has overall responsibility to
  ensure that an effective internal control structure is both established and
  maintained, by GPO managers, for all programs and functions. It also tasks the
  Deputy Public Printer with ensuring that all such vulnerability assessments and
  annual internal control reviews are performed.

  FINDING

  Adequate internal control reviews were not fully developed for the SmartPay
  Program. The development of adequate control reviews serves as an effective
  internal control measure to provide reasonable assurance that government
  resources and assets are safeguarded against fraud, waste, abuse and misuse.
  In addition, neither a vulnerability assessment nor a general risk analysis was
  performed of the SmartPay Program and how it operates within Engineering
  Services (Plant Operations), or within Workforce Development, Education, and
  Training Branch (Human Capital).

  Vulnerability assessments and risk analyses identify controls that may be weak
  (need to be strengthened), nonexistent (need to be developed) or are redundant, as
  well as verifying those that are adequate. In addition, these types of analyses serve
  as a control device for the evaluation and measurement of controls that are already
  established and in place. Such assessments would provide an effective reporting
  measure to determine whether the SmartPay Program’s objectives have been
  achieved, and the allocations of monies spent have been adequately accounted.

  GPO Instruction 825.18A Internal Control Program, Part 3, "Policy" states:

        "GPO shall maintain effective systems of accounting and manage-
        ment control. GPO's managers should continuously monitor and
        improve the effectiveness of management controls associated with
        their programs, functions, and activities, through the performance of
        vulnerability assessments and internal control reviews."
05-03                                      12
(343)
   Within Part 5, "Definitions" of Instruction 825.18A, these terms are defined:

        "a. Vulnerability Assessment – a review of the susceptibility of a
        program, function, or activity to loss or unauthorized use of
        resources, errors in reports and information, illegal or unethical acts,
        and/or adverse or unfavorable public opinion.”

        "b. Internal Control Review – a detailed examination of the internal
        controls of the activity or program to determine whether adequate
        control measures exist and are implemented to prevent or detect the
        occurrence of potential risks in a cost-effective manner. Internal
        control reviews are often predicated upon the findings associated
        with the vulnerability assessments.”

   GPO management in Engineering Services was not aware that internal control
   reviews and periodic vulnerability assessments (or a risk analysis assessment)
   needed to be performed on the SmartPay Program. Engineering Services
   officials were unfamiliar with the overall concept of internal control reviews and/or
   vulnerability assessments, never having performed one as it is defined.
   In a second department, Workforce Development, Education and Training Branch,
   the Chief was aware of the need for these reviews. However, the department has
   undergone extensive reorganization in the past year, including the hiring of a new
   director and numerous other new-hires. An internal control review or vulnerability
   assessment has yet to be conducted in this department.

   When a vulnerability assessment or a general risk analysis is neither developed
   nor performed, an essential reporting measurement device is not established to
   create an effective internal control environment. When adequate internal control
   reviews are not performed or they are not periodically reviewed in an organized
   systematic manner, GPO can be exposed to increased opportunities for fraud,
   waste, and abuse.

   For example, when OIG auditors requested a listing of all current GPO purchase
   cards in December 2004, a total of 21 cards were listed for Engineering Services.
   However, these card listings were associated with only 14 employee names. If a
   vulnerability assessment or risk analysis had reviewed cardholders internally
   within Engineering Services as part of an internal control review program, these
   discrepancies and potential exposure to fraud, waste and abuse could have been
   detected. The Agency Organization Program Controller for GPO corrected this
   listing in January 2005.

   As another example, the above-mentioned review of the December 2004 listing of
   purchase cards indicated that there were no cardholders in the Workforce
   Development, Education and Training Branch. After subsequent reviews and
   corrections were made to the list by Acquisition Services, this listing showed one
   cardholder, who should have been (but was not) included on the prior listing, and
05-03                                     13
(343)
  whose credit limit was stated at $1.5 million. An effective vulnerability
  assessment or risk analysis should have detected this very high limit and, as part
  of an effective internal control program, would have ensured that it was reported
  to Acquisition Services to assist them in maintaining the overall control
  effectiveness of purchase cards.

  RECOMMENDATION

  The Plant Operations Managing Director and the Chief Human Capital Officer
  should ensure that a periodic vulnerability assessment or risk analysis of the
  SmartPay Program is performed within each of their respective departments to
  support an effective internal control review program as required by GPO Instruction
  825.18A (0503-01).

  MANAGEMENT COMMENTS

  Management agreed with the finding and the recommendation (See Appendix II).




05-03                                      14
(343)
                    2. WRITTEN PROCEDURES WERE NOT
                   ESTABLISHED IN ENGINEERING SERVICES

  BACKGROUND

  Adequate written procedures provide clear concise guidelines and instructions.
  Written procedures ensure uniformity of procedures and serve as an effective
  evaluation tool. In addition, written procedures serve as an effective reporting
  measure to determine if the program operation objective(s) have been achieved
  and specify the responsibility and accountability for program operations results.
  These procedures can be particularly important when a program crosses
  departmental lines, making duties and functions less clear-cut.

  FINDING

  Written policies or Standard Operating Procedures (SOPs) were not developed
  for the purpose of monitoring and administering the Purchase Card Program
  within Engineering Services. While we verified that Engineering Services is
  monitoring and accounting for employees' use of the purchase card, the lack of
  written policies or SOPs increases opportunities for misunderstanding and
  potential misuse.

  As GPO's workforce diversifies while it changes, the need for reliance on
  adequate written policies and SOPs will increase to accommodate new-hires
  unfamiliar with GPO and/or use of the government purchase card.

  Standard 4 of GPO Instruction 825.18A requires that:

        "Managers should ensure that appropriate authority, responsibility,
        and accountability are defined and delegated to accomplish the
        mission of the organization, and that an appropriate organizational
        structure is established to effectively carry out program
        responsibilities."

  GPO Instruction 805.27A Obtaining, Using and Safeguarding Commercial Credit
  Cards requires each cardholder and approving official to complete a minimum of
  two hours’ training in basic procurement and how to use the purchase cards.
  However, once the training has been completed, cardholders have only the other
  guidelines of this Instruction for reference regarding policy and procedures at a
  GPO-wide level. The department now charged with overseeing the purchase card
  program as a whole (Acquisition Services) has acknowledged that GPO Instruction
  805.27A needed to be updated, and has issued a revised draft for management
  comments (GPO Instruction 805.27B). However, the process of reviewing,
  approving and summarizing credit card usage for all Engineering Services
  cardholders is not documented.


05-03                                    15
(343)
  When adequate written procedures are not established, opportunities increase
  for fraud, waste, misuse, and abuse of government resources. A review of the
  general listing of GPO purchase card cardholders as of January 2005 identified
  a total of 24 cardholders in Engineering Services. We noted that 15 of these
  cardholders (or 63 percent) were not shown on the December 2004 listing, even
  though they had cards at that time.

  Also, the justification for changes in policy, such as increases in credit limits,
  may be overlooked. In this situation, 16 of the 21 purchase card listings for
  Engineering Services in December 2004 had credit limits of $25,000 or less.
  However, of the 24 Engineering cardholders reported in January 2005, 21 (or
  88 percent) were now listed as possessing cards with credit limits of $100,000.
  We attempted to determine when or how long the 16 names new to the list had
  possessed these credit limits, but information was not readily available.

  With such large amounts of purchasing power available, it is essential that
  cardholders are both made aware of the regulations and restrictions associated
  with the purchase card and also that the review and approval process is
  documented, not only as established by the agency in GPO Instruction 805.27A,
  but also within their own department. The subject of increasing the individual
  card limits is not addressed by GPO Instruction 805.27A. If a cardholder’s credit
  limit is to be changed, especially in the event of a substantial increase, the
  existence of written policies and procedures in individual GPO departments
  would assist greatly in documenting this process.

  RECOMMENDATION

  The Plant Operations Managing Director should ensure that written policies and
  standard operating procedures are developed for the purchase card program in
  order to serve as an effective internal control measure to complement GPO
  Instruction 805.27A, including any subsequent revisions (0503-02).

   MANAGEMENT COMMENTS

   Management agreed with the finding and the recommendation (See Appendix II).




05-03                                     16
(343)
                3. MONITORING OF RETIRED PURCHASE CARDS
                          NEEDS TO BE IMPROVED

  BACKGROUND

  When a GPO employee retires or is separated, they are required to complete
  GPO Form 2938 Employee Checkout Sheet. It is a checklist for returning GPO
  office property before they leave GPO permanently. On the reverse side of this
  form, there is a section titled “Travel Office” for employees to sign that accounts
  for their return of a travel credit card issued to them. There is no mention of a
  purchase card.

  FINDING

  Documented proof of employee return or surrender of their assigned purchase
  card(s) was not being carefully monitored. Our analysis of the listing of GPO
  employee purchase card holders for December 2004 revealed that 42 of the 75
  employees listed for Central Office (or 56 percent) were no longer employed at
  GPO.

  Standard 7 of GPO Instruction 825.18A requires that:

        "Transactions should be promptly recorded, properly classified, and
        accounted for in order to prepare timely accounts and reliable financial
        and other reports. The documentation for transactions, management
        controls, and other significant events must be clear and readily
        available for examination."

  GPO Form 2938 does not contain any portion that would account for the timely
  collection of purchase cards from individual cardholders that could be verified by
  the Acquisitions Office, the office that administers the SmartPay Purchase Card
  Program. Although Form 2938 does contain a subsection that provides for
  employee return of a travel credit card, this is a type of credit card that is
  separate and distinct from a purchase card. Also, GPO Instruction 805.27A,
  which governs the safeguarding of GPO purchase cards, is silent on the subject
  of returning or relinquishing a purchase card upon employee retirement,
  separation or other reason (such as transferring to another department).

  Since the Acquisitions Office did not receive or record timely notification of
  purchase card cardholders separating from GPO on a systematic basis, their
  recordkeeping of current cardholders became outdated. For example, when we
  reviewed a listing of GPO purchase cards for December 2004, we noticed the
  name of a former OIG employee who had retired in April 2004. This former
  employee was still on the purchase card listing, with a $50,000 credit limit. The
  Chief of Acquisition Services recognized this employee's name and verified that
  his card had been personally relinquished at the time of his April 2004

05-03                                      17
(343)
  retirement. The listing of cardholders for January 2005 confirmed this former
  employee’s removal from the list. However, when adequate control procedures
  are not established to support accurate recordkeeping, opportunities increase for
  fraud, waste, misuse and abuse of government resources.

  RECOMMENDATION

  The Chief Human Capital Officer should take steps to ensure that GPO Form 2938
  be revised to include an area where an employee's relinquishing of their purchase
  card can be identified and recorded on a timely basis (0503-03).

  MANAGEMENT COMMENTS

  Management agreed with the finding and the recommendation (See Appendix II).




05-03                                    18
(343)
                                                                       APPENDIX I
                                                                       Page 1 of 1
                     SUMMARY TABLE OF RECOMMENDATIONS
                            AUDIT REPORT #02-09

                     Audit Recommendation                            Status
0209-01: The Director, Materials Management Service,
should ensure that the Chief, General Procurement Division
reconciles the receiving tickets to the disputed ticket items      Implemented
as far back as the inception of the SmartPay Program in
1998.
0209-02: The Director, Materials Management Service,
should ensure that the Chief, General Procurement Division,
develops and implements a new policy on reconciling                Implemented
disputed items by MMS credit card holders.
0209-03: The Director, Materials Management Service,
should ensure that the Chief, General Procurement Division,
reduces the number of future small purchases under $500
procured by MMS credit card holders and issues more credit         Implemented
cards to supervisors of departments at the Central Office in
order to procure future small purchases economically and
timely.
0209-04: The Director, Engineering Service, should ensure
that the Chief, Facilities Division monitors future credit card    Implemented
purchases by the Supervisor, Pipe and Sheet Metal Branch.
0209-05: The Director, Engineering Service, should ensure
that the Chief, Facilities Division submits a request to MMS
to increase the $500 transaction limit to facilitate the future    Implemented
needs of Pipe and Sheet Metal Branch.
0209-06: The Director, Personnel, should ensure that the
Chief, Training and Career Development Branch receives a
Copy 9 of the Request, Authorization, Agreement and
Certification of Training form before authorizing payment on       Implemented
future training courses or uses other alternate means of
certification of training, such as making telephone calls to
the employees’ supervisors.
0209-07: The Director, Materials Management Service,
should ensure that the Chief, General Procurement Division
periodically reviews the annual dollar limitations of the credit   Implemented
card holders to ensure the holders do not exceed the
established annual dollar limitations.
0209-08: The Director, Materials Management Service,
should ensure that the Chief, General Procurement Division
considers either raising the annual dollar limitations for the     Implemented
two credit card holders (purchasing agents) or decreasing
their workload.
05-03                                         19
(343)
